audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants to the Osage Tribe of Oklahoma
GR-80-00-012
May 22, 2000
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Osage Tribe of Oklahoma (Tribe).  The purpose of the grants is to enhance community policing.  The Tribe was awarded a total of $287,896 to hire three new police officers and redeploy the equivalent of 1.2 full-time equivalent (FTE) officers from administrative duties to community policing.

We reviewed the Tribe's compliance with eight essential grant conditions.  We found the Tribe did not comply with five conditions:  local matching funds, reimbursement requests, planning for retention, officer redeployment, and periodic status reporting.

The Tribe did not document a local match for the FAST or MORE.
	The Tribe submitted reimbursement requests of $6,708 that were unallowable because the costs are not supportable as solely for COPS?funded officers.

	The Tribe did not develop a retention plan or commit funding for continuing the employment of the grant-funded positions at the end of the grant period.

	The Tribe could not substantiate that 1.2 FTE officer positions had been redeployed to community policing.  The Tribe purchased computer equipment to reduce existing officers' administrative duties, enabling increased time for community-policing activities.  However, it did not document how much administrative time, if any, was being saved.

	The Tribe did not submit 14 Financial Status Report timely.
In addition to not complying with five of the grant conditions, we found weakness in other areas as identified on the following page.  As a result, we question $80,653 and recommend an additional $10,944 be put to better use. 1

The Tribe submitted FAST and UHP grant applications with inflated fringe benefits.  As a result, the FAST was overstated by $16,431, the UHP by $10,944, and the SCGP by $2,476.

	The Tribe withdrew $94,185 for COPS-funded officers from January 16, 1996, until May 21, 1998, but could not document that these were sworn law enforcement officers.

	The Tribe used questionable accounting practices in the transfer of grant expenditures between law enforcement and non-law enforcement accounts. 
These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix  I. 


Footnote
The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all of our findings are dollar-related.  See Appendix III for a breakout of our dollar-related findings and definitions of questioned costs and funds to better use.